CERTIFICATE OF SERVICE
Pursuant to the U.S. Supreme Court Order dated April 15, 2020 concerning
the ongoing public health concerns relating to COVID-19, I, Jeffrey A. Cohen,
hereby certify that 1 copy of the foregoing letter request for a two week extension
of time of Respondents' deadline to file a brief in opposition to the petition for writ
of certiorari, pursuant to Rule 15.3 and Rule 30.4 of the Rules of the Supreme
Court of the United States, was filed electronically on this 27th day of January,
2021. Notwithstanding the requirements under Rule 29.3 concerning paper
copies, the parties have agreed to electronic service. Therefore, in addition to the
electronic filing notice received by counsel, e-mail service was completed upon the
following on this 27th day of January, 2021:
Nolan C. Knight
Counsel of Record
Munsch Hardt Kopf & Harr, P.C.
3800 Ross Tower
Suite 3800
500 North Akard
Dallas, Texas 75201
(214)855-7500
nknight@munsch.com
Counsel for Petitioners

John Dalston Smith Gilmour
Kelley Drye & Warren, L.L.P.
Suite 900
515 Post Oak Boulevard
Houston, TX 77027
(713)355-5005
jgilmour@kelleydrye.com
Counsel for Respondents

I further certify that all parties required to be served have been served.
s/Jeffrey A. Cohen
______________________________
Jeffrey A. Cohen
FLASTER/GREENBERG P.C.
Commerce Center
1810 Chapel Avenue West
Cherry Hill, NJ 08002
(856)382-2240
jeffrey.cohen@flastergreenberg.com
Counsel for Respondents

